HHS/OIG, Audit - "Review of Medicaid Payments For Outpatient Services and Prescription Drugs Provided to Incarcerated Recipients in the State of Missouri," (A-07-02-03020)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments For Outpatient Services and Prescription
Drugs Provided to Incarcerated Recipients in the State of Missouri," (A-07-02-03020)
October 4, 2002
Complete Text of Report is available in PDF format
(406 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
During a prior audit we determined that the Centers for Medicare
& Medicaid Services (CMS) had not obtained recipient data from the Social
Security Administration (SSA) that identifies incarcerated recipients.
As a result, potentially improper Medicare payments were made by CMS. Based
on this work, we undertook a review of Medicaid fee-for-service payments for
services provided to incarcerated recipients in four states to determine if
the Medicaid program had similar vulnerabilities.  The state of Missouri
was one of the four states selected for review.  The CMS guidelines and
state Medicaid regulations generally provide that Medicaid will not cover outpatient
services or the cost of prescription drugs for inmates.  We found that
improper Medicaid fee-for-service payments for outpatient services and prescription
drugs have been made for incarcerated recipients. However,
we did not find enough errors in our sample to make a statistically valid projection
of the overpayments to the universe.  In our opinion, the claims were paid
because the state did not fully utilize the available data from SSA to identify
incarcerated recipients.  We recommended that the state utilize the data
available from the SSA to identify incarcerated recipients to ensure that unallowable
payments for services provided to inmates are not made in the future.